No. 20-440

In the Supreme Court of the United States
MINERVA SURGICAL, INC., PETITIONER,
v.
HOLOGIC, INC., CYTYC SURGICAL PRODUCTS, LLC, RESPONDENTS.
CERTIFICATE OF SERVICE
I hereby certify that, in accordance with Supreme Court Rule 29.3 and this Court’s
Order of April 15, 2020, the parties below have been served with copies of the
foregoing BRIEF IN OPPOSITION, via e-mail, this 5th day of November 2020. All
parties had previously consented to electronic service consistent with this Court’s
order of April 15, 2020.
Robert N. Hochman
Sidley Austin, LLP
One South Dearborn Street
Chicago, IL 60603
(312) 853-2936
rhochman@sidley.com
Counsel for Petitioner
I declare under penalty of perjury the foregoing is true and correct. Executed on
November 5, 2020.

/s Matthew M. Wolf _
Matthew M. Wolf
Counsel of Record
ARNOLD & PORTER KAYE SCHOLER LLP
601 Massachusetts Ave., NW
Washington, DC 20001
(202) 942-5000
matthew.wolf@arnoldporter.com
November 5, 2020

